                              O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


A cting Ins pe ctor Ge ne ral



Surve y Re s ul
              ts for Ide ntification of Fugitive s Re ce iving Be ne fits



A ttach e d is a copy of our finalm anage m e nt advis ory re port e ntitl
 e d, “Surve y
Re s ul
      ts for Ide ntification of Fugitive s Re ce iving Be ne fits ”(A-01-9 8-63002). Th e
obje ctive of our re vie w w as to de te rm ine w h e th e r th e SocialSe curity
Adm inis tration is re ce iving al
                                 lavailabl e com pute rize d fugitive data for us e in
com pute r m atch ing.

You m ay w is h to com m e nt on any furth e r actions tak e n or conte m pl     ate d. Ifyou
ch oos e to offe r com m e nts , ple as e provide th e m w ith in th e ne xt 60 days . Ifyou
w is h to dis cus s th e finalre port, ple as e cal
                                                  lm e or h ave your s taff contact
Pam e l a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at (410)9 65-9 700.




                                                Jam e s G. H us e , Jr.

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
SSA /O IG/O A /RRUSTIGIA N/cl
                            h /7-14-9 8        9 8-63002-FNL
Re port Fil
          e
                                      O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


A cting Ins pe ctor Ge ne ral



Surve y Re s ul
              ts for Ide ntification of Fugitive s Re ce iving Be ne fits



Th is m anage m e nt advis ory re port pre s e nts th e re s ul
                                                              ts of our s urve y of th e

50 State s , th e D is trict of Col
                                  um bia, and th e U.S. M ars h al  s S e rvice to ide ntify

fugitive fil                          y provide d to th e SocialSe curity Adm inis tration
            e s th at are not curre ntl
(SSA ). Th e obje ctive of our re vie w w as to de te rm ine w h e th e r SSA is re ce iving al
                                                                                              l
avail able com pute rize d fugitive data for us e in com pute r m atch ing.

Com pute rize d fugitive data fil    e s , th at are not curre ntl    y provide d to SSA , are
avail abl  e and coul   d be us e d to s us pe nd paym e nts to Re tire m e nt, Survivors , and
D is ability Ins urance (RSD I)and Suppl        e m e ntalSe curity Incom e (SSI)re cipie nts .
Spe cifical  ly, w e found th at 48 State s ,1 pl     us th e D is trict of Colum bia and th e
U.S. M ars h al  s S e rvice , h ave com pute rize d fil  e s w ith fugitive data and h ave s tate d
an initialinte re s t in providing th is data to SSA for com pute r m atch ing. For th e
re m aining tw o State s , one h as e xpre s s e d caution in its w il     lingne s s to e nte r into a
com pute r m atch ing agre e m e nt, and th e oth e r State doe s not h ave a s tate w ide
fugitive s y s te m be caus e it incl ude s al  lfugitive data in th e Fe de ralBure au of
Inve s tigation’  s (FBI)NationalCrim e Inform ation Ce nte r (NCIC)W ante d Pe rs on’              s
file.

O ur s urve y of State fugitive data s ource s w as th e firs t ph as e of our audit w ork .
W e w il lcontinue our w ork by e nte ring into com pute r m atch ing agre e m e nts w ith
approxim ate l   y 10 State s and m atch ing th e ir fugitive fil e s w ith SSA ’s re cords to
de te rm ine w h e th e r SSA is paying be ne fits to fugitive s w h o w oul  d not h ave be e n
ide ntifie d th rough SSA ’  s curre nt m atch ing proce s s . Th e O ffice of th e Ins pe ctor
Ge ne ral ’s (O IG)O ffice of Inve s tigations (O I)w il  lals o coordinate w ith Fe de ral ,
State , and l   ocall aw e nforce m e nt auth oritie s re garding pote ntialcrim inalviol  ations .



1
    O ne State contains a com bination of com pute rize d and pape r re cords.
Page 2 - K e nne th S. A pfe l


Th e re s ul
           ts of our com pute r m atch ing of fugitive data w il
                                                               lbe de tail
                                                                         e d in a s e parate
audit re port.
SSA did not h ave any form alcom m e nts re garding th e inform ation containe d in th is
re port.

BACKGROUND

SSA is re s pons ibl   e for im pl
                                 e m e nting th e RSD Iand SSIprogram s . RSD Iis d e s igne d
to provide re tire m e nt be ne fits to ins ure d individual  s w h o h ave re ach e d th e
m inim um re tire m e nt age , s urvivors ’be ne fits to de pe nde nts of ins ure d w age
e arne rs in th e e ve nt th e fam ily w age e arne r die s , and to dis able d w age e arne rs
and th e ir fam ilie s . SSIprovide s incom e and dis abil     ity cove rage to financial   y ne e dy
                                                                                            l
individual  s w h o are age d, bl  ind, or dis able d.

Titl e XVIof th e SocialSe curity Act (th e A ct)2 s pe cifical  l
                                                                 y proh ibits SSIbe ne fit
paym e nts to fugitive s . In th is re gard, s e ction 1611(e )of th e A ct w as am e nde d by
th e Pe rs onalRe s pons ibility and W ork O pportunity Re concil   iation A ct of 19 9 6
(Publ  ic Law (P.L.)104-19 3) to proh ibit SSIbe ne fit paym e nts for any m onth during
w h ich an individualis : (1) fl  e e ing to avoid pros e cution for a crim e w h ich is a
fe lony;(2)fl  e e ing to avoid cus tody or confine m e nt afte r conviction for a crim e
w h ich is a fe lony;or (3) viol  ating a condition of probation or parol    e im pos e d unde r
Fe de ralor State l   aw .

Th e ch ange s m ade to titl   e XVIof th e A ct re garding th e s us pe ns ion of be ne fits to
individual s w h o fl e e to avoid pros e cution, or cus tody, or confine m e nt afte r
conviction h ave not be e n s pe cifical  ly adopte d for RSD Ibe ne fits . H ow e ve r,
s e ction 202(x)(1)of th e A ct proh ibits th e paym e nt of RSD Ibe ne fits to pris one rs .
Unde r th e RSD Iprogram , SSA cons ide rs individual        s to continue to be pris one rs 3
untilth e y are re le as e d from pris on. Individual  s w h o e s cape from pris on or failto
appe ar for s e nte ncing are s tillcons ide re d pris one rs and proh ibite d from re ce iving
                  4
RSD Ibe ne fits .

Curre ntly, th e A ct al low s SSA to s us pe nd SSIbe ne fit paym e nts to fugitive s
w ante d for a fe lony, as w e l  las for parole and probation viol        ations . Fugitive s
w ante d for a m is d e m e anor are not dire ctly addre s s e d by th e A ct. H ow e ve r, a
parole or probation viol     ation m ay be clas s ifie d as e ith e r a fe l
                                                                           ony or m is d e m e anor.


2
    Se ction 1611(e )(1)(A)of th e SocialSe curity Act.
3
   Individual  s w h o h ave be e n convicte d of an offe ns e punis h abl
                                                                         e by im pris onm e nt for m ore th an 1 ye ar
(re gardle s s of th e actuals e nte nce im pos e d).
4
    Code of Fe de ralRe gul
                          ations 20 C.F.R. 404.468(c);Program O pe rations M anualSyste m ,
s e ction GN02607.001(C)(1)(a).
Page 3 - K e nne th S. A pfe l

A fe l
     ony is a s e rious offe ns e th at is us ual ly punis h abl   e by im pris onm e nt for m ore
th an 1 ye ar;w h e re as a m is d e m e anor is a le s s s e rious viol
                                                                       ation of th e crim inall aw .
SCO PE A ND M ETH O D O LO GY

In conducting our re vie w , w e contacte d age ncie s in al      l50 State s , th e D is trict of
Col um bia, and th e U.S. M ars h al  s S e rvice to ide ntify com pute rize d fil e s containing
fugitive inform ation and to e xpl    ore th e pos s ibil
                                                        ity of com pute r m atch ing. W h e n
contacting official   s in e ach State , w e de te rm ine d w h e th e r fugitive data file s w e re :
ce ntralize d for th e e ntire State ;avail abl e in com pute rize d form at;com pris e d of
both fe lonie s and m is d e m e anors ;and e nte re d into th e FBIs   ’ NCIC W ante d Pe rs on’     s
fil
  e . W e al s o obtaine d th e approxim ate num be r of fugitive re cords (if k now n).

O ur te le ph one s urve y w as conducte d by our office in Bos ton, M as s ach us e tts ,
be tw e e n January and M arch 19 9 8.

W e pl an to pe rform com pute r m atch ing w ith approxim ate l         y 10 State s to:
(1)ide ntify fugitive s w h o are re ce iving be ne fits ;(2)cal       cul
                                                                         ate th e s avings
as s ociate d w ith s us pe nding th e ir be ne fits , as w e l
                                                              las docum e nt any ove rpaym e nts ;
and (3)coordinate w ith Fe de ral      , State , and l  ocall  aw e nforce m e nt age ncie s
re garding pote ntialcrim inalviol    ations . W e w il   lis s ue th e re s ul
                                                                              ts of our com pute r
m atch ing unde r a s e parate re port once it is com pl       e te d.

RESULTS O F REVIEW

A vail
     abil
        ity of State Fugitive D ata

Com pute rize d fugitive data, w h ich coul  d be us e d by SSA to s us pe nd paym e nts to
RSD Iand SSIre cipie nts , is avail able from th e individualState s , th e D is trict of
Col
  um bia, and th e U.S. M ars h al  s S e rvice . Spe cifical
                                                            ly, w e found th at:

   • Forty-e igh t State s , plus th e D is trict of Col   um bia and th e U.S. M ars h als
     Se rvice , h ave com pute rize d fil    e s w ith fugitive data th at are not curre ntly
     provide d to SSA . Th e individualw e inte rvie w e d in e ach of th e s e State s
     initiall
            y e xpre s s e d an inte re s t in e nte ring into a com pute r m atch ing
     agre e m e nt w ith SSA . H ow e ve r, th e individualinte rvie w e d m ay not be th e
     s am e officialw h o w oul   d be re q uire d to s ign s uch an agre e m e nt. In th e ne xt
     ph as e of our audit, w e w il   lre q ue s t th at 10 State s actual  l
                                                                            y s ign and provide
     fugitive data unde r com pute r m atch ing agre e m e nts .

   • M is s ouri h as a com pute rize d fugitive file , but h as e xpre s s e d caution in its
     w illingne s s to e nte r into a com pute r m atch ing agre e m e nt. Th is State is
Page 4 - K e nne th S. A pfe l

     curre ntly at an im pas s e w ith anoth e r Fe de ralage ncy ove r th e inte rpre tation
     of th e law on s h aring inform ation re garding a s im ilar com pute r m atch
     pe rtaining to th e Food Stam p program .
   • K ans as doe s not h ave a s e parate s tate w ide fugitive s y s te m be caus e allof
     its data is e nte re d into NCIC.

   • Th irty-tw o of th e 52 age ncie s contacte d w e re abl e to provide th e
     approxim ate num be r of re cords in th e ir fugitive file s . Th e num be r of re cords
     range d from 2,300 for 1 State to ove r 2 m il     l
                                                        ion re cords for anoth e r State .
     Th e s e fil
                e s incl
                       ude individual s w ante d for fe l
                                                        ony and/or m is d e m e anor
     ch arge s .

   • O ne State inform e d us th at a m is d e m e anor w arrant is is s ue d if a pe rs on
     doe s not appe ar in court on a fe l      ony ch arge . In th is State , e ve n th ough th e
     originalch arge is a fe l    ony, th e pe rs on w oul d be w ante d on a m is d e m e anor
     w arrant for fail    ing to appe ar in court and/or conte m pt of court. O n th e
     State ’  s com pute rize d w arrant s y s te m , th e originalfe lony ch arge w oul   d not
     be s h ow n. Th e l     aw e nforce m e nt age ncy th at e nte re d th e data into th e
     s y s te m , h ow e ve r, w ould h ave th is inform ation.

   • Five State s are in th e proce s s of updating th e ir fugitive inform ation s y s te m s
     and w oul  d pre fe r to de l
                                 ay com pute r m atch ing untilth e ch ange s are
     com ple te d.

   • Six State s w h ich e xpre s s e d an initialinte re s t in com pute r m atch ing
     indicate d th at th e y norm al  l
                                      y only re l                               aw e nforce m e nt
                                                 e as e th e ir data to oth e r l
     or crim inaljus tice age ncie s .

Se e A ppe ndix A for de tail
                            e d s urve y re s ul
                                               ts .

Fe de ralSource s of Fugitive Inform ation

SSA and O IG/O Iare in th e proce s s of w ork ing to ide ntify fugitive s th rough th e us e
of th e FBIs ’ NCIC W ante d Pe rs on’    s file . Th is fil
                                                           e contains w arrant inform ation,
s uppl ie d from 	 Fe de raland State l aw e nforce m e nt age ncie s , for individual s who
h ave active fe l  ony and s e rious m is d e m e anor w arrants . H ow e ve r, our te l
                                                                                       e ph one
s urve y re ve ale d th at State fugitive fil e s contain inform ation not incl  ude d in NCIC’ s
W ante d Pe rs on’   s fil
                         e . Th e m ajority of State s indicate d th at th e y m aintain data on
individual  s w ante d on fe l ony and m is d e m e anor w arrants w h ich are not e nte re d
into NCIC.
Page 5 - K e nne th S. A pfe l

A s of Fe bruary 3, 19 9 8, NCIC’     s W ante d Pe rs on’ s fil
                                                               e containe d 448,154 re cords
in th e Unite d State s and th e D is trict of Col  um bia. Th is is onl y a portion of th e
fugitive s from jus tice . O f th e 52 age ncie s s urve ye d, 32 age ncie s w e re abl e to
provide th e approxim ate num be r of individual       s w ante d on outs tanding w arrants .
Th is data total   e d ove r 5.9 m ill
                                     ion re cords , but contains both fe l  onie s and
m is d e m e anors , s ince m any State s coul d not e as ily provide a s e parate count
incl uding onl   y fugitive s w ante d for fe l
                                              onie s . Unde r P. L. 104-19 3, SSA can onl    y
s us pe nd SSIbe ne fits to fugitive s w ante d for fe l  ony ch arge s . H e nce , SSA is onl
                                                                                             y
inte re s te d in fugitive fil
                             e s from law e nforce m e nt age ncie s for fe lony ch arge s .

Se ve n State s indicate d th at al    lor m os t of th e ir fugitive data pe rtaining to fe l  ony
w arrants is e nte re d into NCIC. H ow e ve r, m any State s indicate d th at onl          y a
portion of th e ir w arrants are e nte re d into th e NCIC s y s te m , and nine State s
s e gre gate th e ir fugitive file s (w ith both fe l ony and m is d e m e anor inform ation) to
contain onl    y data th at is not incl    ude d in NCIC’  s W ante d Pe rs on’ s file . For
e xam pl  e , 1 State h as a fugitive fil   e th at contains b e tw e e n 300,000 and
500,000 re cords for individual         s w ante d on both fe l  ony and m is d e m e anor w arrants
w h ich are not incl    ude d in NCIC’        e . Th is State re ce ntl
                                          s fil                         y conducte d a m atch w ith
th e State ’  s Wel  fare D e partm e nt w h ich re s ulte d in 20,000 m atch e s . O f th e
20,000, 2,800 w e re viol       e nt fe lons and as s igne d to th e State ’ s Viol  e nt Fugitive
A rre s t Sq uad;and 600 of th e 2,800 viol         e nt fugitive s w e re appre h e nde d.

NCIC m ade a pol       icy ch ange e ffe ctive M ay 19 9 8 to acce pt fe l  ony w arrants w ith out
                    5
an e xtradition re q uire m e nt. Th is pol     icy appl ie s to fe l
                                                                    ony w arrants onl y.
Nonfe l  ony w arrants s til   lre q uire an indication th at th e originating age ncy w il  l
e xtradite . M os t State s indicate d, at th e tim e of our s urve y, th at th e y us ual   l
                                                                                             y only
s ubm it e xtraditabl    e fe l
                              ony w arrants to NCIC (as oppos e d to none xtraditabl       e fe l
                                                                                                ony
or m is d e m e anor w arrants ). O nl    y one State inform e d us th at it doe s not h ave its
ow n w ante d pe rs on’     s fil
                                e , but ins te ad incl
                                                     ude s al  lof its w arrants in NCIC’  s fil
                                                                                               e.
Th e oth e r State s and th e D is trict of Col    um bia e ach m aintain th e ir ow n w ante d
pe rs on’ s file s , w h ich include w arrant inform ation th at is not incl   ude d in NCIC. To
ill
  us trate , 1 State h as 13,9 27 fugitive re cords and e s tim ate s th at be tw e e n 10 and
25 pe rce nt of th e s e re cords (e .g., be tw e e n 1,39 3 and 3,482)invol       ve fe l
                                                                                         ony
ch arge s . H ow e ve r, th e State indicate d th at onl     y 700 of its re cords w e re al so
e nte re d into NCIC.

O th e r SSA Initiative s


5
  A n e xtraditabl
                 e w arrant is us e d in th e s urre nde r of a fugitive from jus tice by one State or auth ority to
anoth e r;and a none xtraditable w arrant is us e d w h e n a State is not w il ling or able to re trie ve a fugitive
l
ocate d in anoth e r State .
Page 6 - K e nne th S. A pfe l

In addition to purs uing a com pute r m atch w ith NCIC’            s W ante d Pe rs on’  s file , SSA
and O IG’   s O Ih ave al   s o initiate d a joint proje ct w ith State l  aw e nforce m e nt
age ncie s . Th is Fugitive Fe l     on Proje ct include s contacting State l      aw e nforce m e nt
official s to allow for re fe rralof fugitive fe l    ons to O Iinve s tigators . W h e n a re fe rral
is m ade from a l    aw e nforce m e nt age ncy, O Is taff q ue ry SSA’        s re cords to
de te rm ine w h e th e r th e fugitive fe lon is re ce iving SSIbe ne fits . If th e fugitive is
found to be re ce iving SSIbe ne fits , th e O Iinve s tigator w il      lcoordinate w ith th e l     aw
e nforce m e nt age ncy to confirm th e de tail      s of th e w arrant and atte m pt to
appre h e nd th e fugitive .6 Th e inve s tigators w il    lal s o notify SSA fie l  d office
pe rs onne labout th e cas e s o th at appropriate adm inis trative action can be tak e n.
Th is joint proje ct be tw e e n SSA and O IG’      s O Icurre ntl  y re l
                                                                         ie s on pape r re fe rral s
from l  aw e nforce m e nt age ncie s and re q uire s m anualq ue rying of SSA ’         s b e ne fit
re cords . W h il e th is proje ct h as h e l pe d SSA to ide ntify fugitive s re ce iving SSI
be ne fits , com pute r m atch ing on a routine bas is w ith State l         aw e nforce m e nt
age ncie s s h oul d ide ntify additionalfugitive s re ce iving SSIbe ne fits in a m ore cos t-
e ffe ctive m anne r.

CO NCLUSIO N

Bas e d on our s urve y of State fugitive data s ource s , SSA ’      s planne d m atch w ith
NCIC’   s W ante d Pe rs on’  s fil
                                  e and its ongoing Fugitive Fe l    on Proje ct m ay not
ide ntify al lfugitive s re ce iving SSIbe ne fits . As a re s ul t, w e w il
                                                                            lproce e d w ith
furth e r audit w ork to de te rm ine w h e th e r additionalfugitive fe l ons w oul d be
ide ntifie d th rough com pute r m atch e s w ith State l   aw e nforce m e nt age ncie s .
Spe cifical  l
             y, w e w ill: (1)s e cure com pute r m atch ing agre e m e nts w ith 10 State s ;
(2)obtain fugitive fil    e s from th os e 10 State s ;and (3)ide ntify th os e fugitive fe l ons
re ce iving SSIbe ne fits w h o w oul   d not be ide ntifie d th rough SSA ’  s planne d m atch
w ith NCIC’    s W ante d Pe rs on’ s fil
                                        e.




                                                                 Jam e s G. H us e , Jr.




6
   To e ns ure th e s e curity of SSA em ploye e s , O IG’
                                                         s O Iw il
                                                                 lcoordinate w ith l
                                                                                   aw e nforce m e nt age ncie s to avoid
th e appre h e ns ion of fugitive s at SSA office s .
Page 7 - K e nne th S. A pfe l
A PPEND ICES

                                                                                      A PPEND IX A



                               SURVEY RESULTS


                                 Is State         A pproxim ate        Portion of       Fe l onie s
       State and              Inte re s te d in    Num be r of        Re cords on         and/or
      O rganization             Com pute r           Re cords            NCIC       M is d e m e anors
       Contacte d              M atch ing?         (IfK now n)        (IfK now n)         in Fil e
Alabam a                                                                               fe lonie s &
Crim inalJus tice                   Ye s              9 0,000                             m ajor
Inform ation Ce nte r                                                               m is de m e anors
Al as k a D e partm e nt of         Ye s                                               fe l
                                                                                          onie s &
Publ  ic Safe ty                                                                    m is de m e anors
A rizona D e partm e nt of          Ye s             100,000                           fe l
                                                                                          onie s &
Publ  ic Safe ty                                                                    m is de m e anors
A rk ans as Crim inal              Ye s (k )                             0% (a)        fe l
                                                                                          onie s &
Inform ation Ce nte r                                                               m is de m e anors
Cal ifornia D e partm e nt
of Jus tice and th e Los            Ye s            2.1 m il
                                                           lion         25% (b)        fe l
                                                                                          onie s &
A nge l e s County                                                                  m is de m e anors
Sh e riffs D e partm e nt
Colorado D e partm e nt                           20,000 fe l   ons                    fe l
                                                                                          onie s &
of Public Safe ty’ s                Ye s          and 170,000                       m is de m e anors
Bure au of Inve s tigation                        m is de m e anors
Conne cticut State                  Ye s              10,000             20%            fe l
                                                                                           onie s &
Police                                                                               m is de m e anors
Delaw are Crim inal                 Ye s                                                  m os tly
Jus tice D ivis ion                                                                 m is de m e anors (c)
D is trict of Colum bia                                                                fe l
                                                                                          onie s &
M e tropol  itan Pol
                   ice              Ye s              14,000                        m is de m e anors
D e partm e nt
Florida D e partm e nt of
Law Enforce m e nt’  s              Ye s                                               fe l
                                                                                          onie s &
O ffice of State w ide                                                              m is de m e anors
Inte l
     lige nce
Ge orgia Bure au of                 Ye s                                               fe l
                                                                                          onie s &
Inve s tigation                                                                     m is de m e anors




                                                  A -1

                                   Is State            A pproxim ate        Portion of       Fe l onie s
           State and            Inte re s te d in        Num be r of       Re cords on         and/or
        O rganization             Com pute r               Re cords           NCIC       M is d e m e anors
          Contacte d             M atch ing?             (IfK now n)       (IfK now n)         in Fil e
H aw aii D e partm e nt of            Ye s          s e ve ralth ous and                    fe lonie s &
Publ  ic Safe ty                                                                         m is de m e anors
Idah o Pol     ice Se rvice s                                                               fe lonie s &
D ivis ion’   s Crim inal             Ye s               19 ,000                         m is de m e anors
Inve s tigation Bure au
Ill
  inois                               Ye s                                                  fe l
                                                                                               onie s &
State Pol      ice                                                                       m is de m e anors
Indiana                               Ye s            in e xce s s of                       fe l
                                                                                               onie s &
State Pol      ice                                      100,000                          m is de m e anors
Iow a D e partm e nt of              Ye s (k )       35,000-37,000            10%           fe l
                                                                                               onie s &
Publ  ic Safe ty                                                                         m is de m e anors
K ans as Bure au of                  No(d)
Inve s tigation
K e ntuck y D e partm e nt            Ye s                                                  fe l
                                                                                               onie s &
of Corre ctions                                                                          m is de m e anors
Louis iana                           Ye s (e )                                              fe l
                                                                                               onie s &
State Pol      ice                                                                       m is de m e anors
M aine                                Ye s                                                  fe l
                                                                                               onie s &
State Pol      ice                                                                       m is de m e anors
M aryl   and                                                                                fe l
                                                                                               onie s &
Bal tim ore County                   Ye s (e )      131,000-141,000                      m is de m e anors
Pol ice D e partm e nt
M as s ach us e tts                   Ye s          300,000-500,000           0% (a)        fe l
                                                                                               onie s &
State Pol      ice                                                                       m is de m e anors
M ich igan                            Ye s              400,000                             fe l
                                                                                               onie s &
State Pol      ice                                                                       m is de m e anors
M inne s ota Bure au of               Ye s               10,000                             fe l
                                                                                               onie s &
Crim inalA ppre h e ns ion                                                               m is de m e anors
M is s is s ippi
D e partm e nt of Publ     ic        Ye s (e )
Safe ty’    s Crim inal
Inve s tigation Se rvice
M is s ouri
D e partm e nt of Publ
                     ic              No(f)                                               m is de m e anors (c)
Safe ty’ s Crim inal
Re cords Ce nte r
M ontana Crim inal                    Ye s              13,9 27(g)             5%           fe l
                                                                                               onie s &
Jus tice D e partm e nt                                                                  m is de m e anors



                                                     A -2

                                  Is State          A pproxim ate    Portion of       Fe l onie s
         State and             Inte re s te d in     Num be r of    Re cords on        and/or
       O rganization             Com pute r            Re cords        NCIC       M is d e m e anors
        Contacte d              M atch ing?          (IfK now n)    (IfK now n)         in Fil e
Ne bras k a                          Ye s                                              m os tl  y
State Patrol                                                                      m is de m e anors
Ne vada
State H igh w ay Patrol  ’ s                                                         fe l
                                                                                        onie s &
Re cords &                           Ye s             60,000           0% (a)     m is de m e anors
Ide ntification Se rvice s
Bure au
Ne w H am ps h ire                   Ye s              5,000                         fe l
                                                                                        onie s &
State Pol   ice                                                                   m is de m e anors
Ne w Je rs e y                       Ye s             26,000                             h igh
D e partm e nt of Law &                                                           m is de m e anors
Publ  ic Safe ty’s                                                                         &
D ivis ion of State Police                                                        m is de m e anors
Ne w M e xico
D e partm e nt of Public             Ye s             40,000           0% (a)        fe l
                                                                                        onie s &
Safe ty’  s Crim e                                                                m is de m e anors
Inform ation Ce nte r
Ne w York
Ne w York City Pol   ice             Ye s           1,069 ,000                       fe l
                                                                                        onie s &
D e partm e nt and th e                                                           m is de m e anors
Ne w York State
Crim inalJus tice
D e partm e nt
North Carol   ina                                                                    fe l
                                                                                        onie s &
State Bure au of                    Ye s (e )          6,300                      m is de m e anors
Inve s tigations
North D ak ota                                                                         m os tly
Bure au of Crim inal                 Ye s             13,300           0%   (a)
                                                                                  m is de m e anors
Inve s tigation
O h io                                                                               fe l
                                                                                        onie s &
Buck e ye Sh e riff’
                   s                 Ye s             117,000                     m is de m e anors
A s s ociation
Ok l ah om a(h )
various County                       Ye s            m ore th an                     fe l
                                                                                        onie s &
Sh e riffs D e partm e nts                            13,024                      m is de m e anors
and th e State Bure au
of Inve s tigation
O re gon State                       Ye s          50,000-70,000    10% - 20%        fe l
                                                                                        onie s &
D e partm e nt of Pol  ice                                                        m is de m e anors



                                                   A -3

                                Is State         A pproxim ate    Portion of       Fe l onie s
        State and            Inte re s te d in    Num be r of    Re cords on        and/or
      O rganization            Com pute r           Re cords        NCIC       M is d e m e anors
        Contacte d            M atch ing?         (IfK now n)    (IfK now n)         in Fil e
Pe nns y l
         vania
State Pol  ice and th e            Ye s            148,000(i)        0% (a)       fe l
                                                                                     onie s &
Ph il
    ade lph ia Bure au of                                                      m is de m e anors
Crim inalIde ntification
Rh ode Is l
          and                                                                     fe l
                                                                                     onie s &
Fugitive Tas k Force               Ye s                                        m is de m e anors
South Carol  ina                                                                  fe l
                                                                                     onie s &
State Law                         Ye s (k )          2,300           0% (a)    m is de m e anors
Enforce m e nt D ivis ion
South D ak ota                                                                      m os tly
D ivis ion of Crim inal            Ye s             20,000           0% (a)    m is de m e anors
Inve s tigation
Te nne s s e e                     Ye s                              0% (a)       fe l
                                                                                     onie s &
Bure au of Inve s tigation                                                     m is de m e anors
Te xas
D e partm e nt of Public           Ye s            174,000          29 %          fe l
                                                                                     onie s &
Safe ty’ s Te xas Crim e                                                       m is de m e anors
Inform ation Ce nte r
Utah
D e partm e nt of Public          Ye s (k )                                       fe l
                                                                                     onie s &
Safe ty’s Bure au of                                                           m is de m e anors
Crim inalIde ntification
Ve rm ont
D e partm e nt of Public           Ye s              5,000                        fe l
                                                                                     onie s &
Safe ty’s R e m ote Crim e                                                     m is de m e anors
Inform ation Ce nte r
Virginia                           Ye s                                           fe l
                                                                                     onie s &
State Pol  ice                                                                 m is de m e anors
W as h ington                                                                     fe l
                                                                                     onie s &
State Patrol   ’
               s Crim e           Ye s (k )        530,000                     m is de m e anors
Re cords D ivis ion
W e s t Virginia                                                                fe lonie s and
Crim inalIde ntification          Ye s   (k )
                                                                               m is de m e anors
Bure au
W is cons in
D e partm e nt of                 Ye s (e )        148,000            4%          fe l
                                                                                     onie s &
Jus tice ’
         s Crim e                                                              m is de m e anors
Inform ation Bure au



                                                 A -4

                                     Is State             A pproxim ate           Portion of            Fe l onie s
         State and                Inte re s te d in        Num be r of           Re cords on             and/or
        O rganization               Com pute r               Re cords               NCIC            M is d e m e anors
         Contacte d                M atch ing?             (IfK now n)           (IfK now n)              in Fil e
W yom ing
D ivis ion of Crim inal                 Ye s                                                        m is de m e anors
Inve s tigation
Unite d State s M ars h al
                         s
Se rvice                                Ye s                  22,000                 100%               fe l
                                                                                                           onie s
TO TA LS                              50 Ye s             5,9 61,851(j)
                                       2 No


Note s
(a) None of th e re cords in th e State ’
                                        s fil
                                            e are incl
                                                     ude d in th e NationalCrim e Inform ation Ce nte r
    (NCIC)W ante d Pe rs on’ s file.
(b) Cal                                      e contains approxim ate l
        ifornia D e partm e nt of Jus tice fil                        y 700,000 re cords , of w h ich
    25 pe rce nt (or 175,000)are on NCIC. Los A nge l        e s County h as a s e parate m is de m e anor fil
                                                                                                             e
    th at contains approxim ate l  y 1.4 m il l
                                              ion re cords .
(c) File contains fe l
                     onie s , but al   onie s are al
                                   lfe l           s o incl                                    y additional
                                                          ude d in NCIC. Th e re fore , th e onl
    data to be obtaine d from a m atch w ith th e State w illbe fugitive s w ante d on m is de m e anor
    ch arge s .
(d) A l
      lw arrants are e nte re d into NCIC. Th e re is no s e parate s tate w ide s y s te m in K ans as .
(e ) State is in th e proce s s of ch anging its fugitive data s y s te m . State w oul  d pre fe r to de l
                                                                                                          ay
     com pute r m atch ing untilits s y s te m ch ange s are com pl e te d. Proje cte d com pl e tion date s are :
     Louis iana - M arch 19 9 8, M aryl and - s um m e r 19 9 8, M is s is s ippi and North Carol  ina - a ye ar or
     tw o from our initialcontact in January th rough M arch 19 9 8, W is cons in - M ay 19 9 8.
(f) M is s ouri h as a ce ntral
                              ize d com pute rize d w arrant s y s te m , but h as e xpre s s e d caution ove r
    com pute r m atch ing due to its inte rpre tation of th e l  aw on s h aring of inform ation. Th e State is
    at an im pas s e w ith anoth e r Fe de ralage ncy ove r a s im il ar m atch ing program for Food Stam ps .
    Fil
      e contains both fe l   onie s and m is de m e anors ;h ow e ve r, al lfe l
                                                                               onie s are al  s o e nte re d into NCIC.
(g) M ontana e s tim ate s th at be tw e e n 10 and 25 pe rce nt of re cords are fe l
                                                                                    onie s .
         ah om a doe s not h ave a ce ntral
(h ) O k l                                ize d fugitive fil e . Each county h as its ow n inform ation. Som e
                                               e oth e rs h ave pape r re cords .
     countie s h ave com pute rize d data w h il
                                                               e , w h ich onl
(i)	 Th e num be r of re cords in th e s tate w ide fugitive fil              y incl          ony w arrants , w as
                                                                                     ude s fe l
     not k now n. H ow e ve r, th e State ’s file doe s not incl ude Ph il                     vania. Ph il
                                                                               ph ia, Pe nns y l
                                                                           ade l                          ade lph ia
                                  e th at contains 148,000 fe l
     h as a s e parate fugitive fil                                ony and m is de m e anor re cords .
(j)	 To be cons e rvative , if a State provide d a range of re cords (e .g., be tw e e n 300,000 and
     500,000), w e us e d th e l ow e nd of th e range (e .g., 300,000)in cal   cul ating th e totalfor allth e
                 s o, w e did not incl
     State s . A l                    ude th e State of H aw aii in our totals ince a s pe cific num be r of
     re cords w as not provide d.
(k ) State e xpre s s e d inte re s t in com pute r m atch ing, but indicate d th at it norm al
                                                                                              ly onl
                                                                                                   y re l
                                                                                                        e as e s its
     data to oth e r l aw e nforce m e nt or crim inaljus tice age ncie s .


                                                         A -5

                                                                                  A PPEND IX B



            M A JO R REPO RT CO NTRIBUTO RS



O ffice of th e Ins pe ctor Ge ne ral

Roge r Norm and, D ire ctor, North e rn Program Audit D ivis ion


Rona Rus itgian, D e puty D ire ctor


D avid M azzol

             a, Auditor

Judith O l
         ive ira, Auditor


For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Public A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -01-9 8-63002.




                                              B-1

                              A PPEND IX C



SSA O RGA NIZ A TIO NA LCH ART

